 Office of Inspector General
     Audit Report


BETTER PROGRAM MANAGEMENT AND
  OVERSIGHT ARE REQUIRED FOR
  USMMA’S EFFORTS TO ADDRESS
SEXUAL ASSAULT AND HARASSMENT
         Maritime Administration

       Report Number: ST-2015-004
      Date Issued: October 23, 2014
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Better Program Management and                                    Date:    October 23, 2014
           Oversight Are Required for USMMA’s Efforts To
           Address Sexual Assault and Harassment
           Report Number ST-2015-004

  From:    Calvin L. Scovel III                                                  Reply to
                                                                                 Attn. of:   JA-30
           Inspector General

    To:    The Secretary

           Nearly 6 years ago, Congress passed the Duncan Hunter Act, 1 which required the
           Secretary of Transportation and the U.S. Merchant Marine Academy (USMMA) to
           address sexual assault and harassment at the Academy. While USMMA and the
           Department of Transportation (DOT) have taken actions, the effectiveness of those
           actions and Academy prevention efforts have been called into question.
           Specifically, USMMA reported in March 2014 that an estimated 2 25 midshipmen
           were sexually assaulted and 136 midshipmen were sexually harassed in the 2011–
           2012 academic program year (APY), 3 but no incidents of sexual assault or
           harassment were officially reported. The Secretary called these results “deeply
           disturbing” and reiterated the Department’s commitment to providing midshipmen
           with an academic environment free of sexual assault and harassment.

           DOT’s Maritime Administration (MARAD) operates USMMA, which is
           responsible for training midshipmen to become professional merchant marine
           officers. USMMA midshipmen must comply with prescribed disciplinary and
           honor systems, and the Academy must maintain a culture that does not tolerate
           sexual assault and harassment. The Act required USMMA to prescribe policy on
           sexual harassment and sexual violence applicable to the midshipmen and other
           Academy personnel; conduct an annual assessment of the effectiveness of the
           Academy’s sexual harassment and sexual violence policies, training, and


           1
              Duncan Hunter National Defense Authorization Act for Fiscal Year 2009, Pub. L. No. 110-417 § 3507
           (Oct. 14, 2008).
           2
             Estimated based on Defense Manpower Data Center survey results of 482 midshipmen projected/weighted to a
           campus population of 946 midshipmen.
           3
             USMMA’s academic year runs from July 1 through June 30.
                                                                                                                 2


procedures; and submit to the Secretary of Transportation an annual report on the
status of these efforts.

In April 2013, Ranking Member Elijah Cummings and Congresswoman
Jackie Speier of the House Committee on Oversight and Government Reform
requested that we conduct a comprehensive evaluation of the Academy’s efforts to
create a climate in which sexual assault and harassment are not tolerated and that
midshipmen, faculty, and staff are confident in reporting such incidents.
Subsequently, in May 2014, Chairman Patty Murray and Ranking Member
Susan Collins of the Senate Appropriations Subcommittee on Transportation,
Housing, and Urban Development requested that we consider the findings of
USMMA’s 2011–2012 survey as we evaluate the Academy’s efforts to prevent
sexual assault and harassment. They also asked us to evaluate the role of DOT and
MARAD senior leadership in implementing the Academy’s action plans.
Accordingly, we assessed (1) USMMA’s implementation of its action plan to
prevent, respond to, and resolve instances of sexual assault and harassment;
(2) USMMA’s annual reports; and (3) oversight of USMMA’s sexual assault and
harassment prevention, response, and resolution efforts.

We conducted this review between August 2013 and August 2014 in accordance
with generally accepted Government auditing standards. To conduct our work, we
interviewed officials at USMMA, MARAD, and in the Office of the Secretary
(OST) regarding the Academy’s action plan and its Sexual Assault Prevention and
Response (SAPR) program. 4 We reviewed relevant Academy policies, procedures,
guidance, and initiatives to evaluate USMMA’s adherence to statutory
requirements and implementation of its action plan. We also assessed MARAD
and DOT orders, directives, memorandums, and other documentation related to
Departmental oversight of the Academy’s action plan and the SAPR program.
Exhibit A provides further details on our scope and methodology.

RESULTS IN BRIEF
USMMA has made progress in implementing its nine broad goals to reduce sexual
assault and harassment—goals that are based on its 2009–2010 survey and
included in the Academy’s initial action plan. For example, USMMA leadership
updated its Superintendent Instructions on sexual assault and harassment in 2012
and 2013, respectively, 5 to address the goal of “improving the incident reporting
and recordkeeping system.” The updated policies provide new restricted reporting

4
  SAPR is defined here to include all actions taken by USMMA to address sexual assault and sexual harassment, which
comports both with past usage of the term in USMMA annual reports and with the USMMA’s current initiative to
combine its efforts to address sexual assault and sexual harassment.
5
  Superintendent Instruction (2012-08) “Policy on Sexual Assault Prevention and Response” July 30, 2012, and
Superintendent Instruction (2013-02) “Policy Against Discrimination and Harassment, Including Sexual Harassment,
of Midshipmen,” Feb. 4, 2013.
                                                                                   3


options for victims. Despite USMMA’s progress in addressing the nine goals,
none have been fully achieved, as some implemented actions have significant
shortcomings, and the Academy has yet to complete more than a third of the
actions to establish effective SAPR program management. Notably, the Sexual
Assault Response Coordinator (SARC) position became vacant in April 2014.
While acting SARCs have been appointed, many standard operating procedures
(SOP) essential for effective SAPR program management are incomplete. Thus,
even when a new USMMA SARC is hired, that person will be challenged to
maintain the continuity of the SAPR program. In addition, USMMA has not fully
identified tasks, responsibilities, and timeframes for its updated action plan, which
was published in March 2014.

Since the Duncan Hunter Act took effect in October 2008, USMMA has not issued
its reports for the first 4 APYs in a timely manner. The reports have consistently
been issued on average, nearly 2 years after the APY ended. USMMA’s report for
the 2012–2013 APY—which ended June 30, 2013—has yet to be issued.
According to USMMA officials, several factors have delayed USMMA’s annual
reports, including the need to conduct a separate survey of midshipmen returning
from at-sea duty. The usefulness of the biennial surveys has also been limited due
to variations in the survey instruments, their administration, and the process used
to calculate results. These variations make it difficult for USMMA to establish a
comprehensive baseline that would allow results to be compared. Further, the
action plans in the reports are based on outdated data. Reporting delays and other
weaknesses ultimately result in Congress receiving irrelevant and potentially
misleading information on data such as survey results and action plans. For
example, the most recent report and accompanying action plan, issued in
March 2014, covered the biennial survey from July 1, 2011, through
June 30, 2012—which predates the introduction of the SAPR program and the
hiring of the original SARC.

A lack of clear oversight authority and responsibility undermine USMMA’s
efforts to address sexual assault and harassment. To date, OST has not designated
authority or assigned responsibility for overseeing USMMA’s SAPR program and
for ensuring compliance with legislative requirements. Specifically, it has not
delineated the SAPR program elements that are to be managed at the Department
level and those that are to be managed by MARAD or USMMA. In addition,
MARAD has not established clear lines of reporting or training requirements for
key positions related to the Academy’s sexual assault and harassment prevention
programs. Ultimately, there is no clear accountability for addressing and
correcting program weaknesses.
                                                                                                               4


We are making recommendations related to USMMA’s achievement of the goals
in its original action plan, the timeliness of the Academy’s annual reports, and
oversight of the SAPR program.

BACKGROUND
The Secretary of Transportation has a general authority to provide for the
education and training of U.S. citizens for the safe and efficient operation of the
U.S. merchant marine, which encompasses all the Nation’s commercial vessels
and the personnel that operate them, both afloat and ashore. 6 The Secretary has
delegated these responsibilities to MARAD, which funds and operates the U.S.
Merchant Marine Academy at Kings Point, New York. Dedicated in 1943,
USMMA is the only Federal service academy operated by DOT and MARAD.

In 2008, Congress passed the Duncan Hunter Act for fiscal year 2009, which
required actions to address sexual assault and harassment at USMMA. The Act
requires the Secretary of Transportation to direct USMMA to prescribe policies
for addressing sexual harassment and sexual violence; conduct annual assessments
of the effectiveness of its policies, training, and procedures; and submit an annual
progress report to the Secretary, who then transmits it to Congress. The Act also
requires USMMA to conduct a DOT-administered survey of Academy personnel
every 2 years, and develop action plans every academic year on the prevention of
and response to sexual harassment and sexual violence.

Since the Act was passed, the Academy and the Department have undergone
significant leadership changes. USMMA has had four different Superintendents,
and prior to 2011, the Academy did not have a Civil Rights Director. Between
2011 and 2013, there were changes in other key positions, such as the Deputy
Superintendent, Commandant, Counsel to the Academy, and the Director of Public
Safety. Leadership changes at the Department level include the Secretary and
MARAD Administrator. In addition, there have been four MARAD Civil Rights
Directors since 2012.




6
 46 U.S.C. § 51103(a). This is the Secretary of Transportation’s general statutory authority, with respect to the
merchant marine, which is delegated to MARAD.
                                                                               5


USMMA MADE PROGRESS ON ITS ORIGINAL ACTION PLAN,
BUT MANY ACTIONS REMAIN INCOMPLETE
USMMA has taken steps toward implementing the goals outlined in its original
action plan to address sexual assault and harassment. However, none of the nine
goals have been fully achieved, as some of its implemented actions have
significant shortcomings, and the Academy has not completed a number of actions
to establish effective SAPR program management. USMMA also has not fully
identified tasks, responsibilities, and timeframes to make its most recent action
plan fully operational.

USMMA Has Taken Steps To Implement Its Original Action Plan
As required by the Duncan Hunter Act, USMMA published a “Plan of Action” to
reduce sexual assault and harassment in its combined 2008–2009 and 2009–2010
reports to Congress. Since publishing the plan in November 2011, USMMA has
taken actions toward implementing the goals in this action plan. For example:

• USMMA hired a SARC in April 2012 to serve as the on-site subject matter
  expert—an action related to two goals: “reinforce a no tolerance and full
  reporting climate” and “provide additional staff resources.” The SARC began
  implementing the SAPR program from the ground up, and the Academy states
  that the SARC position is the first level of advocacy; all other levels report
  directly to the SARC as the “center of gravity” for the program. As such, the
  SARC is involved in all aspects of the program, including many of the action
  items developed to address the nine goals. USMMA officials confirmed that
  the SARC was instrumental in initiating the SAPR program.

• To support USMMA’s goal to “improve the support network and
  interventions,” the SARC also leads, trains, and supports selected midshipmen
  as sexual assault victim advocates, who serve as peer-level first responders to
  assist victims with reporting an incident, accompanying them to the hospital,
  and providing other confidential support.

• To further USMMA’s goal to “improve faculty, staff, and senior leadership
  awareness, prevention, and training,” the SARC developed the 2013 SAPR
  Training and Campaign Plan for all Academy personnel. For APY 2013–2014,
  nearly all staff and faculty attended a sexual assault and harassment awareness
  training class.
                                                                                                                6


• To address the goal of “improving the incident reporting and recordkeeping
  system,” USMMA leadership updated its Superintendent Instructions on sexual
  assault and harassment in 2012 and 2013, respectively. 7 The updated policies
  provide new restricted reporting options for victims that allow for confidential
  access to support services, such as medical help and counseling, without
  triggering an official investigation. USMMA also implemented and promoted a
  24-hour, 7-days a week sexual assault emergency hotline staffed by the SARC.

The Academy has also taken actions to enhance its safety and security
infrastructure. While this effort was not a specific action item in USMMA’s
original plan, vulnerabilities in campus safety and security were highlighted in a
2012 DOT security assessment. 8 Further, the plan’s introduction states that every
member of the Academy community must feel safe and have confidence in the
reporting system. To that end, USMMA hired a Director of Public Safety in 2012,
a position that had been vacant for 8 years. Under his direction, the Academy
installed six emergency call boxes (see figure 1) across campus, which connect to
an on-site command center. This new command center, which is staffed by armed
security personnel, also has upgraded video surveillance capabilities through
several high-definition cameras placed throughout the campus. Also, security
staffing was recently expanded to provide 24-hour, 7-days a week armed response
capabilities across the USMMA campus. In 2012, USMMA reported to the
Department of Education that access control systems to secure barracks entry
doors were “active.” 9 However, during our last site visit to the Academy in
April 2014, the controls were inoperable, leaving entry doors unlocked at all times
and vulnerable to unauthorized access. According to USMMA officials, delays in
activating the entry control system were due to software and construction
challenges. Recently, USMMA provided documentation showing that the system
was activated on May 19, 2014, but we did not have an opportunity to conduct on-
site verification.




7
  Superintendent Instruction (2012-08) “Policy on Sexual Assault Prevention and Response” July 30, 2012, and
Superintendent Instruction (2013-02) “Policy Against Discrimination and Harassment, Including Sexual Harassment,
of Midshipmen,” Feb. 4, 2013.
8
  “Physical Security Assessment of the USMMA by Office of the Secretary” Office of Security, Division for Physical
and Technical Security (M-40), July 20, 2012.
9
  USMMA Crime Awareness and Campus Security: Campus Crime Report, Annual Report for 2012.
                                                                                                 7


Figure 1. Call Box, Emergency Panel and Camera, and Rotational
High-Definition Camera




Source: OIG

USMMA Has Not Completed Many Actions To Establish Effective
SAPR Program Management
Despite USMMA’s progress in addressing the goals in its original plan, none of
the nine goals have been fully achieved because the Academy has not taken steps
to maintain effective SAPR program management. Notably, the SARC position
became vacant in April 2014, but the Academy has yet to hire a new permanent
SARC. While an Academy staff member was assigned to act as an interim SARC,
USMMA lacks a permanent subject matter expert to maintain and further program
goals. Therefore, it is unclear in the interim how USMMA will, for example,
conduct sexual assault training that is under the SARC’s purview, such as
midshipmen sea-year lectures and annual sexual assault prevention training for all
staff and faculty. The longer the SARC position remains open, the greater the risk
the program will lose its impact.

The Academy also has not established SOPs essential for effective SAPR program
management. Therefore, once a permanent SARC is hired, it will take time for the
new SARC to integrate into the Academy community; maintain and reinvigorate
the program; and gain the trust of midshipmen, staff, and faculty. Per USMMA’s
internal control requirements, each Academy department must maintain such
procedures for key business activities to support “uniformity in the process by
providing a reference to common business practices, activities, or tasks.” 10 While
USMMA has started developing SOPs related to the SAPR program, they are still

10
  Superintendent Instruction 2012-12 “Development and Revision of Academy Policies and Procedures,”
Nov. 26, 2012.
                                                                                    8


in draft form—including SOPs for processing restricted sexual assault reports and
for investigating sexual harassment and sexual assault. Other key SOPs have not
even been drafted, including procedures for collecting evidence related to sexual
assault and for meeting reporting requirements. Without comprehensive SOPs for
the SAPR program, the new permanent SARC will be challenged to determine
what procedures are in place, identify gaps in the procedures, and develop
strategies to close those gaps. Finally, the new SARC will also be required to take
on sexual harassment prevention responsibilities that USMMA added to the
position since it was vacated in April.

In addition to these shortcomings, the Academy has yet to complete action items
related to specific program goals. For example:

• Two years after developing the SAPR program, USMMA cannot determine the
  program’s impact or effectiveness, despite assurances to Congress that a plan
  for measuring program effectiveness was in place. As part of its goal to
  “improve program measurement and evaluation,” USMMA committed to
  outlining performance goals, milestones, and metrics—also required by the
  Superintendent Instruction on Internal Controls. 11 However, this action is
  incomplete. Confusion surrounding the development and use of metrics has
  been particularly problematic. According to the prior SARC, potential
  performance metrics for the program were developed shortly after he was
  hired, and MARAD officials stated that OST approved the metrics. However,
  the SARC indicated that the metrics were never used. Moreover, Academy
  leaders stated they had never seen or approved a MARAD report that included
  these metrics and corresponding data. Ultimately, the MARAD Administrator
  confirmed that while the metrics were approved, they were never actually
  implemented. Instead, USMMA leadership relies on biennial survey results to
  gauge the progress of the SAPR program. Yet, the Academy has not completed
  a biennial survey since the SAPR program started in 2012. Results for the
  2013–2014 survey—the first survey that covers a period that the program was
  active—are unlikely to be issued before 2015.

• The Academy has made little progress in meeting its goal of improving
  incident reporting and recordkeeping. USMMA’s sexual assault and
  harassment incident files are kept in various formats in different offices across
  campus. Similarly, USMMA does not have an efficient recordkeeping system
  of sexual assault and harassment training for midshipmen. The lack of
  centralized systems makes it difficult to readily access records and ensure they
  are complete, as well as track midshipmen and faculty compliance with
  training requirements.


11
     Superintendent Instruction 2013-09 “Internal Control Program” July 11, 2013.
                                                                                            9


In all, USMMA has not completed more than a third of the 32 action items it
developed to address the 9 goals:

(1)   reinforce “no tolerance and full reporting” climate;
(2)   improve incident reporting and recordkeeping system;
(3)   improve “at-sea” protocols and climate aboard commercial vessels;
(4)   improve faculty, staff, and senior leadership awareness, prevention, and
      training;
(5)   improve midshipmen awareness, prevention, and training;
(6)   provide additional staff resources, including hiring a full-time SARC;
(7)   improve support network and interventions;
(8)   improve program measurement and evaluation; and
(9)   increase employee and Regiment of Midshipmen gender diversity.

Table 1 lists the actions that are currently incomplete and the goals each action
supports. (For a complete breakdown of the 32 actions and their status, see
exhibit B.)

Table 1. Incomplete USMMA Actions and Goals the Actions
Support
                                                                                        a
Action Item and Abbreviated Description                  Goal(s) That Action Supports
                                                     1   2   3    4   5    6    7   8       9
1. Hire a SARC                                       X                     X   X
2. SARC reports to the Academy                       X                     X   X
3. Identify, train, and synchronize sexual assault                             X
victim advocates’ efforts
12. Review midshipmen honor code, regulations,       X   X
and policies
15. Review and update sea-year training                      X
18. Incorporate SARC into sea-year training                  X
19. Develop sexual harassment and violence                        X   X
prevention training program
21. SARC serves as center of gravity for                                       X
prevention efforts
22. Create midshipmen network of sexual assault                                X
victim advocates
27. Establish a plan to set performance goals,                                      X
milestones, and metrics
30. Review outreach and recruitment (for staff)                                             X
31. Perform workforce analysis twice a year                                                 X
32. Increase diversity of student body                                                    X
Source: OIG analysis of USMMA 2009–2010 Action Plan
a
  OIG assigned the 32 USMMA action items to the 9 broad goals as we determined appropriate,
based on how the action items addressed a particular goal, or part thereof.
                                                                                                           10


USMMA’s Most Recent Action Plan Lacks Important Details Needed
To Put It Into Operation
As part of its 2011–2012 APY report to Congress, and as required by the Duncan
Hunter Act, USMMA issued a new action plan in March 2014. The new plan
builds on existing goals and initiatives to further develop the Academy’s broader
strategies to address sexual assault and harassment. While USMMA has started to
operationalize this latest action plan, implementation has not been well
coordinated. For example, USMMA has two implementation plans—one from the
outgoing SARC, and one from Academy leadership and OST—and the two plans
do not correlate or fully identify tasks, responsibilities, and timeframes for
accomplishing all the plan’s goals. Additionally, almost half of the tasks that have
been assigned are at least partially the responsibility of the SARC, a position that
has not been permanently filled. Without a comprehensive implementation
strategy that addresses all the elements of the action plan, it is unclear how
USMMA intends to fully achieve its goals.

DELAYS AND SURVEY WEAKNESSES LIMIT THE USEFULNESS
OF USMMA REPORTS
While USMMA has submitted annual reports on sexual assault and harassment for
APYs 2008–2009 through 2011–2012, the reports have consistently been issued,
on average, nearly 2 years after the APY ended. The biennial surveys have also
been problematic, and no comprehensive baseline has been established to measure
midshipmen, staff, and faculty perceptions of the campus climate. Delays and
other reporting weaknesses ultimately result in Congress receiving irrelevant and
potentially misleading information, including data on survey results and action
plans.

USMMA Has Not Issued Annual Reports in a Timely Manner, and
Surveys Have Been Problematic
Since the Duncan Hunter Act took effect in October 2008, USMMA has issued
three reports covering the first 4 APYs. 12 However, the Academy has not
developed a plan with milestones to ensure the annual reports are timely, and
reports have consistently been issued, on average, nearly 2 years after the APY
ended (see figure 2). 13 USMMA’s report for the 2012–2013 APY—which ended
June 30, 2013—has yet to be issued, and USMMA officials were unable to
provide an estimated date for completion. In contrast, Department of Defense
(DOD) military service academies, which must comply with essentially the same

12
  The 2008-2009 annual report was issued under the same cover as the 2009-2010 report.
13
  The Duncan Hunter Act does not specify due dates, but the reports are required annually to update Congress on
progress being made.
                                                                                                         11


reporting requirements, 14 routinely deliver their reports to Congress no later than
8 months after the end of the APY.

Figure 2. Time To Issue USMMA Annual Reports to Congress
After the Close of the Academy Program Year




Source: OIG analysis of USMMA annual reports

Several factors have delayed USMMA’s annual reports, including the time it takes
for reports to go through OST and Office of Management and Budget review
processes. There are also delays in obtaining complete survey data to include in
the reports since USMMA must conduct a separate survey of midshipmen
returning from at-sea duty—typically in November, or 5 months after the end of
the APY. 15

In addition, the usefulness of the biennial surveys has been limited due to
variations in the survey instruments, their administration, and the process used to
calculate results. USMMA created and administered the first survey (for the 2009–
2010 APY); the Defense Manpower Data Center (DMDC) 16 conducted subsequent
surveys. Comparing data from the first two biennial surveys was not possible,
largely because they had different questions and were administered to different
14
   The John Warner National Defense Authorization Act for Fiscal Year 2007, Pub. L 109-364, 120 Stat. 2083
(Oct. 17, 2006) requires DOD service academies to submit reports on sexual harassment and assault annually.
15
   The USMMA Sea Year program places midshipmen aboard ocean-going maritime vessels for training purposes for
about 135 days during their sophomore year and about 265 days during their junior year at the Academy.
16
   DMDC administers the Service Academy Gender Relations (SAGR) surveys to all DOD service academies (U.S.
Military Academy, U.S. Naval Academy, and U.S. Air Force Academy) and the U.S. Coast Guard Academy.
                                                                                             12


populations at different times (see table 2). In addition, the USMMA-administered
survey was conducted online, while the DMDC surveys are given in person.

Table 2. Summary of USMMA Biennial Survey Populations and
Dates Administered
APY                        Population Surveyed         Dates Administered
                 Midshipmen Midshipmen Staff/Faculty
                 on Campus at Sea
2009–2010 Yes                   No            Yes      April and June 2010
2011–2012 Yes                   Yes           No       May and November 2012
2013–2014 Yes                   Yes           Yes      April, November (planned), and June 2014
Source: OIG analysis

These differences in survey execution make it difficult for USMMA to establish a
comprehensive baseline that would allow results to be compared from year to
year. As a result, nearly 6 years after passage of the Duncan Hunter Act, USMMA
still cannot accurately assess the current Academy climate or determine whether
progress has been made to address sexual assault and harassment at the Academy.
DMDC’s ongoing survey of midshipmen will provide the first set of results that
can be directly compared to a previous survey, but USMMA will not have the
results from DMDC until 2015.

Reporting Delays Have Impeded Efforts To Inform Congress
Reporting delays ultimately result in Congress receiving outdated information and
data on USMMA’s efforts to address sexual assault and harassment at the
Academy. For example, the most recent report, issued in March 2014, covered the
biennial survey from July 1, 2011, through June 30, 2012—which predates the
introduction of the SAPR program and the hiring of the original SARC. The 2013–
2014 report will be the first to include results of a survey administered after many
of USMMA’s actions. However, the survey is still ongoing, and the 2012–2013
report has yet to be issued. Consequently, it is unlikely that USMMA, the
Department, or Congress will know the impact of the Academy’s actions to reduce
sexual assault and harassment before 2015.

The action plans included in the reports are also outdated. The Duncan Hunter Act
requires each annual report to include an action plan to address sexual assault and
harassment for the following APY. However, the 2011–2012 report and
accompanying action plan were issued in March 2014—nearly 9 months after the
2012–2013 APY had already ended. Likewise, the action plan contained in the
2012–2013 report will be issued after the end of the 2013–2014 APY. 17 Without a
plan that includes milestones to ensure timely reporting, Congress will continue to
17
     The 2013–2014 APY ended June 30, 2014.
                                                                                                                      13


receive potentially irrelevant and misleading information, survey results, and
action plans.

USMMA’S SAPR PROGRAM LACKS CLEAR OVERSIGHT
AUTHORITY AND RESPONSIBILITY
Many of the weaknesses we identified are linked to a lack of clear oversight
authority for the SAPR program. While general oversight responsibilities have
been established by law, the responsibility for specific oversight of sexual assault
and harassment prevention and response programs or for complying with
legislative requirements have not been specified. Furthermore, MARAD has not
established clear lines of reporting for key positions related to the SAPR program
or training requirements for the SARC position.

OST Has Not Designated Authority or Assigned Responsibilities for
Overseeing the SAPR Program
Oversight responsibilities for USMMA’s efforts to prevent, respond to, and
resolve sexual assault and harassment are not clear. According to an OST official,
OST assigned oversight responsibility to MARAD and USMMA. However,
MARAD officials were unaware that OST had assigned MARAD oversight
responsibility, and OST could not provide any implementing documents that
specify authority and responsibility for the Duncan Hunter Act requirements, such
as directives or memoranda. 18

OST and MARAD officials acknowledge that they have general oversight
responsibilities with regard to USMMA as an institution, 19 and the law specifies
that OST is responsible for ensuring USMMA complies with the Duncan Hunter
Act. However, key aspects of program oversight have not been assigned.
Government internal control standards call for agencies to clearly define key areas
of authority and responsibility in order to achieve their mission and desired
program results. 20 While OST and MARAD officials met periodically to monitor

18
   The Secretary has delegated authority to the Maritime Administrator to “carry out the functions and exercise the
authorities vested in the Secretary under Subtitle V of title 46, U.S.C…” (49 CFR § 1.93). The delegation of Subtitle V
predates the Duncan Hunter Act and includes Chapter 513, which addresses the USMMA. The Duncan Hunter Act
requirements can be found in the Note to 46 U.S.C. § 51301.
19
   46 U.S.C. § 51301(a) obligates the Secretary of Transportation “to maintain the United States Merchant Marine
Academy as an institution of higher education to provide instruction to individuals to prepare them for service in the
merchant marine of the United States, to conduct research with respect to maritime-related matters, and to provide such
other appropriate academic support, assistance, training, and activities in accordance with the provisions of this chapter
as the Secretary may authorize.” DOT Order 1100.69A, “Department of Transportation Organizational Manual,
Maritime Administration,” indicates that MARAD is responsible for training merchant marine officers at the United
States Merchant Marine Academy, Kings Point, NY. The Maritime Administration is also generally delegated authority
under 49 CFR § 1.92 for “Operating the U.S. Merchant Marine Academy” in order to train officers for the Nation’s
merchant marine.
20
   See GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, Nov. 1, 1999, p. 8.
                                                                                                          14


progress on the action plan, they have not defined and formalized roles and
responsibilities among OST, MARAD, and USMMA to oversee sexual assault and
harassment prevention programs at the Academy and correct program weaknesses.
Specifically, OST and MARAD have not individually or collectively:

• established a results-oriented oversight framework related to USMMA’s SAPR
  program and compliance with the Duncan Hunter Act. To evaluate program
  effectiveness, best practices call for the SAPR program oversight agency to
  develop and implement an oversight framework that includes, at a minimum,
  long-term goals, objectives, and milestones; performance goals; strategies for
  accomplishing the goals; and criteria for measuring progress. 21 Without a
  comprehensive oversight framework, OST lacks visibility into the
  effectiveness of USMMA’s SAPR program and the Academy’s compliance
  with statutory requirements. Lack of an oversight framework is especially
  concerning given that USMMA has no formal SOPs for much of the SAPR
  program and many of the SARC’s responsibilities, despite USMMA’s internal
  requirements for such procedures. 22

• developed a Department-level SAPR policy for monitoring the program and
  for ensuring compliance with the Duncan Hunter Act. 23 Such a policy would
  delineate the SAPR program elements that are to be managed at the
  Department level and those that are to be managed by MARAD or USMMA.
  The lack of an explicit designation of authority and policy has placed the entire
  burden of program management and statutory compliance on USMMA.

• established adequate oversight mechanisms for required annual assessments on
  the effectiveness of USMMA policies, training, and procedures and annual
  reports to Congress. This has affected the quality, timeliness, and credibility of
  information that OST and USMMA have provided to Congress on USMMA’s
  actions to address sexual assault and harassment. In contrast, responsibility for
  conducting assessments of sexual assault and harassment at DOD military
  service academies, and compiling and issuing annual reports to Congress are
  primarily performed by a Departmental oversight office—not by DOD
  academies. 24 Such direct involvement by DOD’s oversight agency is the result
  of a series of Government Accountability Office (GAO) audit
  recommendations highlighting the importance of having a comprehensive

21
   See GAO 11-809 and GAO 08-924.
22
    Superintendent Instruction 2012-12 “Development and Revision of Academy Policies and Procedures,”
Nov. 26, 2012.
23
   The USMMA SAPR program has been redefined to include sexual harassment and is now called the Sexual Assault
Prevention and Response Program (SAPRO). No Department-wide policy exists for either the SAPR or the SAPRO
programs.
24
   DOD designated oversight authority over the DOD sexual assault and response program to the Sexual Assault
Prevention and Response Office (SAPRO) in DOD Directive 6495.01.
                                                                                  15


   analysis performed at the Department level before annual academy reports are
   forwarded to Congress. To date, DOD has also consistently issued its reports to
   Congress in a timely manner—due in part to its clear designation of oversight
   authority and responsibility.

MARAD Has Not Established Clear Lines of Reporting or Training
Requirements for Key SAPR Program Positions
Unassigned oversight authority and responsibilities have resulted in a lack of clear
lines of reporting for USMMA officials responsible for addressing sexual assault
and sexual harassment at USMMA—including the SARC. Additionally, changes
in leadership within the Department and at the Academy have also contributed to
unclear lines of reporting for these officials. Establishing clear lines of reporting
and providing proper supervision are important internal controls for ensuring
accountability.

Unclear lines of reporting responsibility for the SARC stem from the original 2011
job description for the position, which did not define a supervisory relationship for
the job. While the job description was revised in November 2013, the SARC’s
supervisory relationship remained unclear. Specifically, the revised job description
stated that the SARC (1) was “under the direct supervision of the USMMA
Superintendent,” (2) was to be “provided daily operational instruction from the
Deputy Superintendent,” and (3) had a “concurrent reporting responsibility to the
MARAD Executive Director on matters relating to Department-level SAPR policy
and improper action by USMMA senior leadership on SAPR matters.” As
previously discussed, since there is no Department-level SAPR policy, the matters
on which the SARC reports to the Executive Director are undefined. In total, DOT
reported five different supervisory relationships for the SARC from the time he
was hired in February 2012 through March 2014. The SARC, who left the
Academy in April 2014, indicated that one of his challenges in implementing the
SAPR program at USMMA was uncertain reporting responsibilities.

Reporting responsibilities for the USMMA Civil Rights Director are also unclear.
Notably, the Director’s current position description establishes contradictory
reporting responsibilities to two different officials—the Director of Civil Rights of
MARAD and the USMMA Superintendent.

Finally, MARAD has not established continuing education requirements for
USMMA’s SARC. In contrast, DOD recently established a certification
requirement for all its SARCs to standardize sexual assault response to victims and
                                                                                                                16


professionalize victim advocacy roles. 25 Training and evaluating personnel are
vital to an agency’s internal control environment. Without continuing education
requirements for the SARC, USMMA cannot ensure that the SARC’s knowledge
and skills are consistent with current best practices for such positions.

CONCLUSION
Sexual assault and sexual harassment cause great psychological and physical harm
and must be met with zero tolerance. While USMMA has taken some actions to
address sexual assault and harassment, many of its planned actions are incomplete.
Until action is taken to implement meaningful program goals and measures, ensure
timely reporting on USMMA’s progress, and provide effective oversight of the
SAPR program, the Nation’s midshipmen and USMMA’s faculty and staff will
remain at risk of operating in a hostile environment with incidents of sexual
assault and harassment continuing and potentially going unreported.

RECOMMENDATIONS
We recommend that the Office of the Secretary of Transportation take the
following action:

1. Define and designate oversight responsibility for USMMA’s SAPR program
   (including sexual harassment prevention for students) to the Maritime
   Administration.

We recommend that the Maritime Administrator take the following actions:

2. Establish an oversight framework for the USMMA SAPR program and its
   sexual harassment prevention efforts, including goals by which USMMA’s
   progress can be assessed.

3. Clarify lines of reporting for the Academy SARC and the Civil Rights
   Director, and define the position requirements for the SARC.

4. Establish continuing education requirements for the USMMA SARC position.

5. Develop performance metrics for the USMMA SAPR program and its sexual
   harassment prevention activities and an internal mechanism to measure
   USMMA’s progress in meeting established program goals.

25
  The National Defense Reauthorization Act for FY 2012 required the Secretary of Defense to establish a professional
and uniform training and certification program for DOD Sexual Assault Response Coordinators and Sexual Assault
Victim Advocates. In response, DOD established the Sexual Assault Advocate Certification Program (D-SCAAP) as
part of the training requirement for all DOD SARCs. Effective October 1, 2013, all SARCs in DOD are required to
hold this certification to be assigned SARC duties.
                                                                               17


6. Develop a plan with milestones, assigned responsibilities, and deadlines by
   which annual reports and action plans on sexual assault and harassment are
   delivered to Congress.

7. Formalize standard operating procedures related to the SARC’s responsibilities
   and the execution of the SAPR program.

8. Identify associated tasks, responsibilities, and timeframes to accomplish each
   goal of its most recent action plan.

9. Develop a systematic recordkeeping system for sexual assault and sexual
   harassment reports and incidents and related training.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided MARAD with a copy of our draft report on August 21, 2014, and
received its response on October 3, 2014. MARAD’s complete response is
included as an appendix to this report. MARAD concurred with all nine of our
recommendations and stated it had implemented all of them. Based on MARAD’s
response and our review of documentation the Agency provided with its response,
we consider recommendations 1, 2, 5, 6, 8, and 9 resolved and closed. We
consider recommendation 4 resolved and open, pending completion of planned
actions. MARAD’s response and supporting documentation provided for
recommendations 3 and 7 were not sufficient to consider them fully addressed.
Accordingly, those recommendations will remain open and unresolved until
MARAD provides further information on its planned actions and completion
timeframes.

For recommendation 3, while MARAD clarified reporting lines for the Academy
Civil Rights Director and defined position requirements for the SARC, reporting
lines for the SARC remain inconsistent due to discrepancies between the position
description and the Maritime Administrative Order (MAO) 150-1, which outlines
roles and responsibilities of Academy personnel. Therefore, similar to the
Academy Civil Rights Director, the SARC position description needs to be further
updated to reflect changes consistent with MAO 150-1. Until we receive the
revised position description, we will consider this recommendation open and
unresolved.

Finally, for recommendation 7, the Academy finalized SOPs for Processing
Restricted Reports and Investigating Unrestricted Reports. However, the Academy
has yet to develop procedures for collecting evidence related to sexual assault, a
critical component to carrying out those procedures. Until we receive an SOP for
collecting evidence, we will consider this recommendation open and unresolved.
                                                                                 18


ACTIONS REQUIRED
MARAD’s planned actions and time frames for recommendation 4 are responsive,
and we consider it resolved but open pending completing of the planned actions.
We consider recommendations 3 and 7 open and unresolved. In accordance with
DOT Order 8000.1C, we request that MARAD provide additional information on
recommendations 3 and 7 as described above, within 30 days of this report.

We appreciate the courtesies and cooperation of OST, USMMA, and MARAD
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1959 or Mitch Behm, Assistant Inspector General for
Surface Transportation, at (202) 366-5630.

                                         #

cc:    MARAD Audit Liaison, MAR-392
       DOT Audit Liaison, M-1
                                                                                19



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit from August 2013 through August 2014 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our audit objectives were to assess (1) USMMA’s implementation of its action
plan to prevent, respond to, and resolve instances of sexual assault and
harassment; (2) USMMA’s annual reports; and (3) oversight of USMMA’s sexual
assault and harassment prevention, response, and resolution efforts.

To conduct our work, we reviewed relevant laws, Academy policies, procedures,
guidance, and initiatives to evaluate USMMA’s adherence to statutory
requirements and implementation of its action plans. These documents included
the Duncan Hunter Act of 2009, Academy sexual assault and harassment
prevention policies, training plans and rosters, gender relation survey results,
budget documents, personnel-related documents, goals, and action plans. We also
assessed MARAD and DOT orders, directives, memorandums, and other
documentation related to Departmental oversight of the Academy’s action plan
and the SAPR program. Because the John Warner National Defense Authorization
Act for Fiscal Year 2007 requires DOD military service academies to report
annually on their efforts to address sexual assault and harassment, we reviewed the
Act and DOD’s assessment and reporting protocols with regard to the actions the
military service academies are required to take to address sexual assault and
harassment.

We interviewed officials and staff at USMMA; officials in MARAD’s Office of
Civil Rights; and officials in OST’s Office of Civil Rights, Office of Budget and
Financial Information, and Office of General Counsel regarding the Academy’s
action plan, its SAPR program, and DOT oversight of these efforts. We were
provided information from officials at DOD’s Sexual Assault Prevention and
Response Office and interviewed officials with the Defense Manpower Data
Center.

Over the course of our audit, we conducted three site visits to the USMMA
campus in Kings Point, NY, to conduct meetings and interviews; collect
documentation; observe physical security measures, recordkeeping systems, and
infrastructure; and tour the Academy grounds, to include the recently installed
command center.


Exhi bit A. Scope and Methodology
                                                                                              20



EXHIBIT B. STATUS OF USMMA ORIGINAL ACTION PLAN AND
ASSOCIATED ACTION ITEMS
The following table lists the status—completed (), partially complete (), or
incomplete or carried over ()—of the 32 actions items USMMA developed to
address 9 goals: (1) reinforce “no tolerance and full reporting” climate;
(2) improve incident reporting and recordkeeping system; (3) improve “at-sea”
protocols and climate aboard commercial vessels; (4) improve faculty, staff, and
senior leadership awareness, prevention, and training; (5) improve midshipmen
awareness, prevention, and training; (6) provide additional staff resources,
including hiring a full-time SARC; (7) improve support network and interventions;
(8) improve program measurement and evaluation; and (9) increase employee and
Regiment of Midshipmen gender diversity.
                                                                                   a
Action Item and Abbreviated Description             Goal(s) That Action Supports           Status
                                                1    2   3   4   5    6   7   8        9
1. Hire a SARC                                  X                    X    X                 
2. SARC reports to the Academy                  X                    X    X                 
3. Identify, train, and synchronize sexual                                X                 
assault victim advocates’ efforts
4. Form a Students Against Sexual Assault       X                         X                 
(SASA) Club
5. Leverage Human Resource Committee            X                         X                 
(HRC)
6. Recognize Sexual Assault Awareness           X                X                          
Month (SAAM)
7. Engage Ship Operators Cooperative            X        X                                  
Program (SOCP)
8. Raise awareness at the Women on the          X        X                                  
Water Conference
9. Create dual sexual assault reporting             X                                       
capabilities
10. Establish a 24-7 victim emergency hotline       X                                       
11. Review sexual assault investigation             X                                       
procedures
12. Review midshipmen honor code,               X   X                                       
regulations, and policies
13. Review sexual assault and harassment            X                                       
policies
14. Engage Ship Operators Cooperative           X        X                                  
Program (SOCP)
15. Review and update sea-year training                  X                                  
Exhi bit B. Stat us of USMM A Original Action Pl an and Associated
Action Items
                                                                                            21


                                                                                 a
Action Item and Abbreviated Description           Goal(s) That Action Supports           Status
                                              1    2   3   4    5   6    7   8       9
16. Revise code word procedure for at-sea              X                                  
students
17. Update return procedures for at-sea                X                                  
students
18. Incorporate SARC into sea-year training            X                                  
19. Develop sexual harassment and violence                 X   X                          
prevention training program
20. Review academic program and include                                  X                
prevention principles
21. SARC serves as center of gravity for                                 X                
prevention efforts
22. Create midshipmen network of sexual                                  X                
assault victim advocates
23. Form SASA Club for added visibility and                              X                
awareness
24. Review Training for Human Relation                                   X                
Officers (HRO)
25. Contract with DMDC for Biennial Gender                                   X            
Relation Surveys
26. Convene Focus Groups for Midshipmen                                      X            
27. Establish a plan to set performance                                      X            
goals, milestones, and metrics
28. Hire a Civil Rights specialist                                                   X    
29. Review midshipmen HRO performance                                    X                
30. Review outreach and recruitment (for                                             X    
staff)
31. Perform workforce analysis twice a year                                          X    b
32. Increase diversity of student body                                               X    
Source: OIG analysis of USMMA 2009–2010 Action Plan
a
  OIG assigned the 32 USMMA action items to the 9 broad goals as we determined appropriate,
based on how the action items addressed a particular goal, or part thereof.
b
  We requested but did not receive documentary evidence for item 31.




Exhi bit B. Stat us of USMM A Original Action Pl an and Associated
Action Items
                                                                   22




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                      Title

Toayoa Aldridge                           Program Director

Amanda Seese                              Project Manager

Keith Klindworth                          Senior Analyst

Sara Oliver                               Senior Analyst

Henning Thiel                             Analyst

Karen Sloan                               Communications Officer

Amy Berks                                 Attorney




Exhi bit C. Major Contributors to Thi s Report
                                                                                            23



APPENDIX. AGENCY COMMENTS



                         THE DEPUTY SECRETARY OF TRANSPORTATION
                                         WASHINGTON DC 20590


Subject:   INFORMATION: Management Comments - Office of                        Date: 10/3/2014
           Inspector General (OIG) Draft Report on USMMA’s Efforts
           to Address Sexual Assault and Harassment

From:      Victor Mendez
           Deputy Secretary

To:        Calvin Scovel III
           Inspector General

The U. S. Merchant Marine Academy (USMMA) is committed to eliminating sexual
assault and sexual harassment to ensure the safety and well-being of our Midshipmen,
faculty, and staff. The 2010 and 2012 USMMA surveys indicated rates similar to the
other Federal service academies; however, the USMMA finds any incident unacceptable
and has made significant progress in developing and implementing a Sexual Assault
Prevention Response (SAPR) Program to prevent and respond to sexual harassment and
sexual assault. The USMMA added new staff, revised its human relation s infrastructure,
and developed new policies and procedures, with the goal of preventing sexual
harassment and sexual assault. Specifically, the USMMA took the following actions:

•     The USMMA implemented a 2417 hotline and fostered a relationship with the Nassau
      County Rape Crisis Center. Student victim advocates have been designated and
      trained to provide another restricted reporting outlet for victims in addition to the
      Sexual Assault Response Coordinator (SARC), Chaplains, and Health Care Providers
      at Patten Hall. Unrestricted reports can be made to these individuals as well as any
      other Academy employee.
•     The USMMA conducts quarterly training for all Midshipmen as well as training for
      Plebe Candidates during Indoctrination, prior to and after Sea Year training periods
      and semi-annually for Midshipmen in Regimental leadership positions. Annual
      training is also provided to all faculty, administrators, staff, Academy first responders
      and victim advocates.
•     The USMMA contracted with the Defense Manpower Data Center (DMDC) to
      conduct the Service Academy Gender Relations Focus Groups as follow-up to the
      written survey given in 2011-2012 to obtain open and honest feedback from students,
      faculty and staff.
•     The USMMA implemented security and safety enhancements across the campus,
      such as security cameras and call boxes, as well as card reader access vice open

      Appendix. Agency Comments
                                                                                        24


    access to the barracks.
•   The USMMA has recently hired a new Sexual Assault Response Coordinator.

Based upon our review of the draft report, we agree with all OIG recommendations, as
written. As part of the USMMA's broader sexual assault and sexual harassment
prevention plan, we have already implemented all nine of the proposed
recommendations. We look forward to working with the OIG to review our standards,
validate our implementation and close out the recommendations.

We appreciate this opportunity to offer a response to the OIG draft report. Please contact
Deputy Superintendent Susan Dunlap at (516) 726-5814 with any questions or if the OIG
would like to obtain additional details about these comments.




    Appendix. Agency Comments
                                                                                                 25


                         RECOMMENDATIONS STATUS REPORT
                                        FOR
                 OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT ON
  ‘BETER PROGRAM MANAGEMENT AND OVERSIGHT ARE REQUIRED FOR USMMA’S EFFORTS TO
                     ADDRESSS SEXUAL ASSAULT AND HARASSMENT’

1. Define and designate oversight responsibility for the USMMA’s SAPR program (including sexual
   harassment prevention for students) to the Maritime Administration.
   The Secretary’s authority to operate the Academy is set forth in 46 U.S.C. §51301(a): The
   Secretary of Transportation shall maintain the United States Merchant Marine Academy as an
   institution of higher education to provide instruction to individuals to prepare them for service in
   the merchant marine of the United States, to conduct research with respect to maritime-related
   matters, and to provide such other appropriate academic support, assistance, training, and
   activities in accordance with the provisions of this chapter as the Secretary may authorize.

    49 CFR §1.93(a) delegates to the Maritime Administrator the authority to “carry out the
    functions and exercise the authorities vested in the Secretary under Subtitle V of Title 46, U.S.C.,
    except for 46 U.S.C. 51303 and 55601(c) and (d).” By this provision, oversight responsibility for
    the USMMA’s Sexual Assault Prevention and Response (SAPR) program – as well as oversight
    responsibility for all other USMMA responsibilities -- is delegated to the Maritime Administrator,
    unless the authority is specifically withheld. At the onset of the Academy’s formal SAPR in early
    2012, the Office of the Secretary exercised certain oversight functions, including supervision of
    the Sexual Assault Response Coordinator (SARC). Following the arrival of the Superintendent in
    the summer of 2012, those responsibilities reverted to the Maritime Administration (MARAD),
    and subsequently the reporting chain of the SARC was clarified and resolved, as further described
    below in response to Recommendation 3.

    Within MARAD, the oversight responsibilities are individually defined by the position descriptions
    of the SARC, the Civil Rights Officer, the Deputy Superintendent and the Superintendent at the
    USMMA, as well as MARAD’s Director of Civil Rights, the Executive Director and the Maritime
    Administrator. These responsibilities are also addressed in the USMMA Maritime Administrative
    Order (MAO) 150-1 and Superintendent Instruction 2012-08, “Policy on Sexual Assault
    Prevention and Response,” Superintendent Instruction 2013-02, “Policy Against Discrimination
    and Harassment, Including Sexual Harassment, of Midshipmen” and Superintendent Instruction
    2013-04, “ Sexual Assault Review Board (SARB).”

2. Establish an oversight framework for the USMMA SAPR program and its sexual harassment
   prevention efforts, including goals by which USMMA’s progress can be assessed.
   The Academy’s framework for the SAPR Program is established in the Program Plan dated
   September 15, 2014. The Plan sets forth four specific goals as follows: (1) Climate – create a
   culture intolerant of sexual assault and sexual harassment or behaviors that enable it; (2)
   Prevention – eliminate sexual assault and sexual harassment at the Academy through the

    Appendix. Agency Comments
                                                                                               26


   foundation of a strong preventive culture; (3) Response – improve the availability and quality of
   response support for victims of sexual assault and sexual harassment as increase victim
   confidence and lessen the stigma associated with reporting; and (4) Accountability – ensure
   those who commit sexual assault or sexual harassment at the Academy are held accountable;
   improve capability and capacity for the reporting, investigation and prosecution of sexual
   assault; and elevate leadership engagement in response to sexual assault. The specific
   objectives, actions and assessment tools for each of these goals are outlined in detail within the
   Plan. The Plan encompasses eight performance metrics to measure effectiveness of the SAPR
   Program goals and objectives.

3. Clarify lines of reporting for the Academy SARC and the Civil Rights Director and define the
   position requirements for the SARC.
   As delineated in Maritime Administrative Order (MAO) 150-1, signed by the Maritime
   Administrator on September 5, 2014, the SARC will report directly to the Superintendent and
   have concurrent reporting responsibility to the MARAD Executive Director on matters only of
   improper management and conflicts of interest by Academy leadership. In addition, the SARC is
   required coordinate with the MARAD Office of Civil Rights on all sexual harassment prevention
   matters to ensure consistency with MARAD and Department of Transportation policies and
   procedures.

   The Academy Civil Rights Director reports directly to the Superintendent (or the Deputy
   Superintendent, if delegated) and has a concurrent reporting responsibility to the MARAD
   Director, Office of Civil Rights, with responsibility for developing and supporting the MARAD’s
   Federal Equal Employment Opportunity (EEO), Diversity, Recruitment, Affirmative Employment,
   Special Emphasis, Persons with Disabilities, and Prevention of Sexual Harassment programs, as
   well as administering EEO complaints and providing advisory service, guidance and training on
   EEO process matters.

   The position requirements for the SARC, as defined in the official Position Description, are
   coordinator and manager of the SAPR Program emphasizing the commitment of the institution
   to maintain a living, learning and working environment that rejects sexual harassment and
   assault, and attitudes that promote such behaviors. The SARC responds to and provides
   guidance and other information for victims of sexual harassment and assault; provides policy,
   guidance and other information concerning sexual harassment and assault prevention to the
   Academy community at large; and coordinates with internal and external stakeholders and
   provides program direction and guidance to all concerning reporting procedures, confidentiality,
   training, safety tips and resources. The SARC also serves as the subject matter expert on
   national policy issues related to the SAPR Program, sexual harassment, and assault to the
   Departmental and MARAD Civil Rights Offices. The specific duties of the position are outlined in
   the Position Description (copy attached).



   Appendix. Agency Comments
                                                                                             27


4. Establish continuing education requirements for the USMMA SARC position.
   The Academy has established a minimum continuing education requirement for the SARC of
   40 hours annually, including but not limited to Sexual Assault Victim Advocate Certification,
   Sexual Assault Training Program Certification, sexual assault investigation training, and Title
   IX training and education. Specific training requirements, if necessary, will be established in
   consultation with the new SARC (expected to arrive in October 2014) and documented in the
   SARC’s Performance Plan within 30 days of reporting and annually thereafter.

5. Develop performance metrics for the USMMA SAPR program and its sexual harassment
   prevention activities and an internal mechanism to measure USMMA’s progress on meeting
   established program goals.
   This recommendation is addressed in the Academy’s SAPR Program Plan referenced in No. 2
   above. Appendix B of the Plan provides the performance metrics and methodology that will be
   utilized to measure effectiveness of the SAPR program goal and objectives as follows: 1. Number
   of reported incidents; 2. Number of restricted reports; 3. Pre and post test scores from online
   training; 4. Number of sea year reported incidents; 5. Training evaluation feedback; 6. Number of
   investigations; 7. Victim advocacy referrals; and 8. Number of sexual harassment incidents.

6. Develop a plan with milestones, assigned responsibilities and deadlines by which annual reports
   and action plans on sexual assault and harassment are delivered to Congress.
   The Academy has developed a plan with milestones, assigned responsibilities and deadlines
   in order to deliver the annual report to Congress by January 15 of each year. The plan,
   which is based on the Academic Program Year (APY) of the Academy, outlines the
   procedures for survey years (APY that begins in an odd-numbered calendar year), and non-
   survey years (APY that begins in an even-numbered calendar year) as defined by the Duncan
   Hunter National Defense Authorization Act for Fiscal Year 2009.

   For survey APYs, the plan proposes that the SARC will, in June (the ending of the previous
   APY), commence liaising with the Defense Contract Management Center (DMDC), the
   contractor conducting the surveys, to set up the survey schedule (proposed as November for
   the A-splitters, and April for the B-splitters). The SARC and DMDC will work together to
   review and refine, as necessary, the survey questions well in advance of the first survey
   timeslot. DMDC will brief the survey results and provide them to the Academy not later than
   the end of July (90 days). The SARC will prepare the Annual Report for delivery to MARAD HQ
   by September 1st. MARAD will complete its review and submit by 1 October for OST and
   OMB review, followed by delivery to the Secretary for signature not later than December. In
   accordance with the plan, the SARC will administer the faculty and staff survey in January-
   February timeframe, and complete the survey analysis by March for inclusion in the Report.

   The plan calls for focus group sessions to be conducted during the non-survey years. Focus
   Group Sessions will be facilitated by DMDC in January of the respective APY. DMDC will
   provide Focus Group results to the SARC by May. The Annual Report will be prepared and
   submitted for review, concurrence, and signature by the end of December.



    Appendix. Agency Comments
                                                                                                28


    In order to meet the January 15, 2015 mandate, the Annual Report for APY 2013-2014 (the
    survey year which ended in June 2014) will be based on partial survey data. An addendum
    to the Report will be provided upon completion of the second Midshipmen survey, to be
    conducted in November 2014, and receipt of the survey results from DMDC.

7. Formalize standard operating procedures related to the SARC’s responsibilities and the
   execution of the SAPR program.
   On September 25, 2014, the Academy issued Standard Operating Procedures (SOPs) related to
   the SARC’s responsibilities and the execution of the SAPR program. Promulgated under the
   authority of the Superintendent, the SOPs address processing a restricted report of sexual assault
   and investigating an unrestricted report of sexual assault.

    In case of a restricted report of sexual assault, the SARC is responsible for ensuring that the
    victim has immediate and continuous access to medical or counseling services as desired. The
    SARC will notify the Superintendent of the restricted report without revealing the name of the
    victim. The SARC will also complete and file the required documentation to keep a record of the
    report for future review and statistical analysis.

    The specific responsibilities of the SARC for unrestricted reports of sexual assault are to, upon
    notification of a sexual assault directly or from another party, personally ensure that the
    victim/complainant has immediate and regular access to services (including medical and
    counseling services), and create a record of the assault report. The SARC shall immediately
    notify the Superintendent and the Director, Department of Public Safety (DPS), of the incident
    and complete the appropriate documentation. While the DPS Director is responsible for
    contacting the DOT OIG, FBI and Nassau County Special Victims Unit, after which a criminal
    investigation may be initiated, the SARC is responsible for keeping the complainant/victim
    informed of the progress and outcome of the investigation, and assist as otherwise required.
    The SARC is also responsible for the safeguarding and maintenance of all records (hard copy and
    electronic) relative to reports of sexual assault.

8. Identify associated tasks, responsibilities, and timeframes to accomplish each goal of its most
   recent action plan.
   The updated Action Plan, included as Appendix D in the 2012-2013 Report to Congress and
   attached hereto, identifies the specific tasks, responsible parties for each task, targets dates for
   completion and completion percentages for each task. The primary elements of the Action Plan
   include Climate, Incident Reporting, At-Sea Protocols, Midshipmen and Staff Awareness,
   Prevention and Training, Support Network and Intervention, Program Effectiveness Assessments,
   and Gender Diversity. The Action Plan is a fluid document, and is updated regularly.
   Modifications to the current Action Plan are anticipated following review and input from the new
   SARC once onboard.




    Appendix. Agency Comments
                                                                                                  29


9. Develop a systematic recordkeeping system for sexual assault and sexual harassment reports
   and incidents and related training.
   The SOP for Maintenance of Restricted and Unrestricted Reports of Sexual Assault and Sexual
   Harassment and Maintenance of Sexual Assault Prevention and Response and Sexual
   Harassment Training Materials was finalized on September 25, 2014. This SOP outlines the
   process for file documentation and the storage and disposition of restricted and unrestricted
   reports and training files for the SAPR Program. The SOP requires that all records relative to the
   SAPR Program be maintained and safeguarded by the SARC. All records of sexual assault and
   sexual harassment are maintained in a locked file in the SARC’s office and are retained for at
   least five years from the date of the report, or one year after the complainant graduates or
   otherwise separates from the Academy, whichever date is later. Records of unrestricted reports,
   restricted reports and sexual harassment reports are each maintained separately.

     In accordance with the SOP for recordkeeping, upon notification of an unrestricted report, the
    SARC takes an initial report of the alleged incident to include the name of the complainant, name
    of the accused (if known), nature of the complaint, date(s) of the incident, witness names, name
    of the person who received the complaint (if other than the SARC), name of person who prepared
    the written documentation, date of the written documentation and any other information
    relevant to the case. This document constitutes the official record of the incident. Unrestricted
    reports are tracked and reported on a monthly basis to the Sexual Assault Review Board.

    When a victim chooses to file a restricted report, the SARC will complete the “Restricted Report
    of Sexual Assault” form and maintain the document in a secure location. The SARC notifies the
    Superintendent of receipt of the restricted report, disclosing the date, time, location and general
    nature of the alleged assault only. The identity of the victim or the accused is not revealed. The
    SARC maintains a log of all interactions with the victim from intake to final disposition. The SARC
    will provide the victim with access to services as long as the victim desires. Restricted reports are
    tracked and reported on a monthly basis to the Sexual Assault Review Board, without personal
    identifying information.

    The SARC will maintain an official record of all training materials for the SAPR Program including
    but not limited to the date(s) of the training provided, the instructor’s name, attendance records
    for the training, and training survey/feedback forms. These files will be maintained in a storage
    cabinet in the SARC’s office, and will be maintained for five years from the date the training was
    provided.

    Finally, the SOP requires that all digital files/materials pertaining to SAPR Program training will
    be maintained on a confidential server accessible only to the SARC.




    Appendix. Agency Comments
